No. 20IN THE
SUPREME COURT OF THE UNITED STATES

Z.B., by and through Sylvia Sanchez,
Petitioner,
vs.
DISTRICT OF COLUMBIA,
Respondent.

CERTIFICATE OF COMPLIANCE WITH THE RULE 33 WORD
COUNT REQUIREMENTS REGARDING THIS PETITION FOR
WRIT OF CERTIORARI TO THE COURT OF APPEALS OF THE
DISTRICT OF COLUMBIA

Petitioner,

through

counsel,

certifies

and

affirms

that

the

aforementioned Petition for Writ of Certiorari contains no more than
3,337 words (less than 9,000).
So Certified,
/S/CR
Chesseley Robinson
Counsel of Record for Petitioner
2516 Australia Drive
Raleigh, NC 27610
chesseley@chesseleycares.com

